January 25, 2007

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

KATHY AINSWORTH
ACTING VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT: Audit Report – Fiscal Year 2006 Financial Installation Audit – Contract
         Postal Units (Report Number FF-AR-07-075)

This report presents the results of our audits of 16 statistically selected contract postal
units (CPU) during fiscal year 2006 (Project Number 06BD003FF000, formerly Project
Number 06XD003FF000). We conducted the audits to support the audit of the U.S.
Postal Service financial statements.

Based on the items we reviewed, financial transactions were reasonably and fairly
presented in the accounting records, and, generally, the internal controls we examined
were in place and effective. However, the CPUs had internal control and compliance
issues related to cash and stamp accountability, xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
and the xxxxxxxxxxxxxxxxxxxxxxxx.1

We made recommendations to district management addressing the findings at each
unit. District management’s comments were responsive to our findings and
recommendations and the actions taken or planned should correct the issues identified
at these installations. The Postal Service reviewed a draft of this report and chose not
to respond since there were no recommendations.




1
  In this report, we discuss only those findings reported at three or more CPUs. Appendix B is a summary of all
findings reported to district management.



                                               Restricted Information
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Linda Libician-
Welch, Director, Field Financial – West, or me at (703) 248-2100.

   E-Signed by John Cihota
ERIFY authenticity with ApproveI




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc: William P. Galligan
    H. Glen Walker
    Fredrick Hintenach, III
    Vincent DeVito
    Janet L. Webster
    Steven R. Phelps
Fiscal Year 2006 Financial Installation Audit –                       FF-AR-07-075
 Contract Postal Units



                                      TABLE OF CONTENTS

 Executive Summary                                                              i

 Part I

 Introduction                                                                  1

     Background                                                                1
     Objectives, Scope, and Methodology                                        2
     Prior Audit Coverage                                                      3

 Part II

 Audit Results                                                                 4

     Contract Postal Units                                                     4
         Cash and Stamp Accountability                                         4
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                                     5
         xxxxxxxxxxxxxxxxxxxxxxxx                                              5

     Audit Comment                                                             6
     Management’s Comments                                                     6

 Appendix A. Contract Postal Units Audited                                     7
 Appendix B. Audit Findings Reported at Contract Postal Units                  8
 Appendix C. Accountability Examination Summary                               10




                                             Restricted Information
Fiscal Year 2006 Financial Installation Audit –                                            FF-AR-07-075
 Contract Postal Units


                                          EXECUTIVE SUMMARY
    Introduction                      This report summarizes the results of our audits of
                                      16 statistically selected contract postal units (CPU) for fiscal
                                      year 2006. We conducted these audits in support of the
                                      annual audit of the U.S. Postal Service financial statements,
                                      which is required by the Postal Reorganization Act of 1970.
                                      The audits at each of the CPUs were unannounced.

                                      Our overall objectives were to determine whether financial
                                      transactions of field operations were reasonably and fairly
                                      presented in the accounting records and whether internal
                                      controls were in place and effective at the 16 statistically
                                      selected CPUs.

    Results in Brief                  Based on the items we reviewed, financial transactions
                                      were reasonably and fairly presented in the accounting
                                      records, and, generally, the internal controls we examined
                                      were in place and effective. However, the CPUs had
                                      internal control and compliance issues related to cash and
                                      stamp accountability, xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
                                      and the xxxxxxxxxxxxxxxxxxxxxxxx.2 Appendix B gives
                                      details of the findings for all 16 CPU audits, and Appendix C
                                      shows the results of our accountability examinations at each
                                      CPU.

                                      We made recommendations to district management
                                      addressing the findings at each unit. District management’s
                                      comments were responsive to our findings and
                                      recommendations, and the actions taken or planned should
                                      correct the issues identified at these installations.
                                      Therefore, we are not making recommendations in this
                                      report. The Postal Service reviewed a draft of this report
                                      and chose not to respond since there were no
                                      recommendations.




2
    In this report, we discuss only those findings reported at three or more CPUs.



                                                            i
                                                 Restricted Information
Fiscal Year 2006 Financial Installation Audit –                                                   FF-AR-07-075
 Contract Postal Units


                                           INTRODUCTION
    Background                    Beginning with fiscal year (FY) 2001, the U.S. Postal
                                  Service Office of Inspector General (OIG) assumed
                                  responsibility from the Postal Inspection Service for
                                  conducting financial field audits at revenue-generating units
                                  and stamp distribution offices. Revenue-generating units
                                  include post offices, contract postal units (CPU), self-service
                                  and automated postal centers, and business mail entry
                                  units. These audits are conducted in support of the overall
                                  audit of the U.S. Postal Service financial statements.

                                  A CPU is a post office located inside a retail establishment
                                  and operated by the retailer’s employees. CPUs provide
                                  postal services to remote, underserved, and seasonal
                                  locations where traditional post offices are not available or
                                  are overburdened. The units operate under contract to the
                                  Postal Service and provide postal services to the public,
                                  which can include mail acceptance, postage sales, other
                                  postal products and services, and Postal Service money
                                  orders.

                                  Generally, the contractor must provide a surety bond3 from
                                  an approved source in an amount sufficient to cover the
                                  value of all stamp stock, cash, and the value of postage on
                                  the meters.4 The contracting officer’s representative (COR)
                                  should monitor the CPU’s accountability regularly to ensure
                                  it does not exceed the current bond amount.

                                  CORs assist the contractors and maintain the CPU
                                  administrative file. In addition, CORs are required to
                                  conduct quarterly performance reviews and annual financial
                                  examinations,5 including a review of the contractor’s bond to
                                  ensure that it has been paid, is current, and reflects the
                                  CPU’s current accountability.

                                  The following publications, along with the unit’s contract
                                  agreement, establish procedures for CPU unit operations
                                  and oversight:




3
  A bond is not required for performanced-based contracts with a xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
4
  Publication 156, Postal Service Guide to CPUs, Section 5-7.23, August 2005.
5
  Financial examinations are not conducted at units with a xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.



                                                       1
                                            Restricted Information
Fiscal Year 2006 Financial Installation Audit –                                                       FF-AR-07-075
 Contract Postal Units


                                   •    Handbook F-1, Post Office Accountability Procedures,
                                        November 1996 (updated with Postal Bulletin revisions
                                        through June 9, 2005).6

                                   •    Publication 116, Contract Postal Units Operations Guide,
                                        August 2002.

                                   •    Publication 156, Postal Service Employee Guide to
                                        Contract Postal Units, August 2005.

                                   •    Postmaster/Field Guide Version 5.0, July 2006.

                                   •    Postal Operations Manual, Issue 9, July 2002.

                                   •    Management Instruction, AS-220-1999-1, xxxxxxxxxx
                                        xxxxxxxxxxxxx.

    Objectives, Scope,             Our overall objectives were to determine whether financial
    and Methodology                transactions of field operations were reasonably and fairly
                                   presented in the accounting records and whether internal
                                   controls were in place and effective.

                                   To accomplish these objectives, we performed fieldwork at
                                   the 16 statistically selected CPUs7 from November 2005
                                   through August 2006.8 (See Appendix A for a list of units
                                   and OIG Report Numbers.) The audits performed at each
                                   unit were unannounced. We performed accountability
                                   examinations on the cash, stamp stock, and money orders
                                   maintained at the units. We observed the unit’s closeout
                                   procedures and preparation of the bank deposits.

                                   We conducted this audit from November 2005 through
                                   January 2007 in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls as we considered necessary under the
                                   circumstances. We discussed our observations and


6
  Management suspended updates to the Handbook F-1 on August 18, 2005, and plans to issue a revised handbook
in FY 2007.
7
  Our sampling universe did not include units using xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. These units pay in
advance for their stamps, metered postage, and supplies. Consequently, these units do not require bonding;
completion of Postal Service (PS) Form 1412, Daily Financial Report; financial audits; or separation of funds; and do
not sell postal money orders or offer post office box services. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
8
  These 16 units reported revenue of $2.7 million in FY 2005.



                                                         2
                                              Restricted Information
Fiscal Year 2006 Financial Installation Audit –                                     FF-AR-07-075
 Contract Postal Units



                                  conclusions with management officials and included their
                                  comments where appropriate. We issued individual reports
                                  to management at each unit.

 Prior Audit Coverage             The OIG issued a report entitled Fiscal Year 2004 Financial
                                  Installation Audit – Contract Postal Units (Report Number
                                  FF-AR-05-100, dated March 31, 2005). The report
                                  disclosed internal control and compliance issues related to
                                  accountability over cash and stamps, safeguarding assets,
                                  xxxxxxxxxxxxxxxxx, and provisions of the Bank Secrecy
                                  Act. We recommended management reinforce instructions
                                  to CORs regarding accountability — specifically,
                                  maintaining excess cash and safeguarding assets at CPUs
                                  — to improve compliance with Postal Service procedures.
                                  Management agreed with our findings and
                                  recommendations.




                                                       3
                                            Restricted Information
Fiscal Year 2006 Financial Installation Audit –                                                       FF-AR-07-075
 Contract Postal Units



                                            AUDIT RESULTS
    Contract Postal Units          We conducted audits at 16 statistically selected CPUs.
                                   Based on the items we reviewed, financial transactions
                                   were reasonably and fairly presented in the accounting
                                   records, and, generally, the internal controls we examined
                                   were in place and effective. However, the CPUs had
                                   internal control and compliance issues related to cash and
                                   stamp accountability, xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
                                   and the xxxxxxxxxxxxxxxxxxxxxxxx.9

    Cash and Stamp                 Employees of the CPU, host post office, and the COR did
    Accountability                 not always follow policies and procedures for cash and
                                   stamp accountability. Specifically:

                                   •    CPU employees at six units did not follow procedures for
                                        preparing the bank deposit.10 Employees stated they
                                        were either unaware of or did not fully understand the
                                        requirements for preparing the deposit. Not following the
                                        procedures increases the risk of loss of funds and the
                                        misstatement of assets in the financial statements.

                                   •    CPU employees at four units did not secure stamps or
                                        cash during nonbusiness hours.11 At three of the four
                                        units, employees stated they were unaware of the
                                        requirements or did not fully understand them. At the
                                        other unit, employees stated they overlooked the
                                        requirements and forgot to secure stamps and cash as
                                        required. When assets are not safeguarded as
                                        prescribed, there is an increased risk that cash and
                                        stamps could be lost or stolen.

                                   •    At three units, the COR and host post office employees
                                        did not perform the annual cash and stamp
                                        accountability examinations. At two of those units
                                        management cited time constraints or said that other
                                        duties took priority. At the third unit, management stated



9
  In this report, we discuss only those findings reported at three or more CPUs. See Appendix B for a summary of all
findings reported to district management.
10
   Handbook F-1, Post Office Accounting Procedures, Section 333.2.7, November 1996 (updated with Postal Bulletin
revisions through June 9, 2005).
11
   Publication 116, Contract Postal Unit Operations Guide, Section 1-4.5, August 2002.



                                                         4
                                              Restricted Information
Fiscal Year 2006 Financial Installation Audit –                                        FF-AR-07-075
 Contract Postal Units



                                        they had conducted the examinations, but could not
                                        locate any supporting documentation. When
                                        management does not follow cash and stamp
                                        accountability procedures, there is an increased risk of
                                        loss of cash, stamps, or other sensitive items.

 xxxxxxxxxxxxxxxxx                 CPU employees did not always follow policies and
 xxxxxxxxxxxxxxx                   procedures for xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
                                   Specifically, CPU employees at three units did not
                                   adequately xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx during
                                   nonbusiness hours.12 Employees stated they were unaware
                                   of the requirements for xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   or did not fully understand them. If unit employees do not
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx, the Postal Service has
                                   an increased risk that the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

 xxxxxxxxxxxxxxxx                  Employees of CPUs and host post offices did not always
 xxxxxxx                           follow policies and procedures to implement fully the xxxx
                                   xxxxxxxxxxxxxxxxxxm.13 Specifically:

                                   •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                       xxxxxxxxx.

                                   •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

                                   •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

                                   •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

                                   Contractors and host post office employees said they did
                                   not fully implement the xxxxxxxxxxxxxxxxxxxxxxxx because
                                   they were not aware of the requirements or did not fully
                                   understand them. When policies and procedures for the



12
     Handbook F-1, Section 422.13.
13
     Management Instruction, AS-220-1999-1, xxxxxxxxxxxxxxxxxxxxxxxx.



                                                        5
                                             Restricted Information
Fiscal Year 2006 Financial Installation Audit –                                                            FF-AR-07-075
 Contract Postal Units



                                       xxxxxxxxxxxxxxxxxxxxxxxx are not followed, there is an
                                       increased risk the Postal Service will lose cash, and
                                       investigative leads could be lost or delayed.

 Audit Comment                         We made recommendations to district management
                                       addressing the findings14 at each installation. District
                                       management’s comments were responsive to our findings
                                       and recommendations, and the actions taken or planned
                                       should correct the issues identified at these installations.
                                       We did not identify any corrective actions required by Postal
                                       Service Headquarters regarding these issues. Therefore,
                                       we are not making additional recommendations in this
                                       report.

 Management’s                          The Postal Service reviewed a draft of this report and chose
 Comment                               not to respond since there were no recommendations.




14
     Individual reports addressed the issues discussed in this report and the issues identified in Appendix B.



                                                             6
                                                  Restricted Information
Fiscal Year 2006 Financial Installation Audit –                                                     FF-AR-07-075
 Contract Postal Units




              APPENDIX A. CONTRACT POSTAL UNITS AUDITED
This table presents the 16 CPUs statistically selected for audit.

                                                                            FY 2005            OIG Report
                Unit Name                             Location             Revenue15            Number
 1.   xxxxxxxxxxxxxxxxxxxxxxxxxxxxx               xxxxxxxxx, PA             $101,907          FF-AR-06-195
 2.   xxxxxxxxxxxxxxxxxxxxx                       xxxxxxxx, WY               174,264          FF-AR-06-221
 3.   XXXXXXXXXxxxx                               XXXXXXXXX, NV              308,039          FF-AR-06-214
 4.   XXXXXXXXxxxxxxxxx                           XXXXXXXX, NY               325,791          FF-AR-06-144
 5.   XXXXXXxxxx                                  XXXX, OK                   403,920          FF-AR-06-158
 6.   XXXXXXXXXXXXXXXXxxxxx                       XXXXXXX, AZ                449,366          FF-AR-06-157
 7.   XXXXXXXXXXXXXXXxxxx                         XXXXXXXXX, FL              127,491          FF-AR-06-151
 8.   XXXXXXXXxxxx                                XXXXXXXX, MN               183,111          FF-AR-06-171
 9.   XXXXXXXXXXXxxxx                             XXXXXXXXX, MN               41,005          FF-AR-06-255
10.   XXXXXXXXXXXXXXXXXXxxxx                      XXXXXXX, VA                 54,614          FF-AR-06-199
11.   XXXXXXXXXXXxxxx                             XXXXXX, TX                  44,021          FF-AR-06-238
12.   XXXXXXXXXXxxxxx                             XXXXXXXX, ME                39,412          FF-AR-06-240
13.   XXXXXxxxx16                                 XXXXX, OH                   11,280          FF-AR-06-173
14.   XXXXXXXXXXxxxx                              XXXXXXXXX, PA                 8,683         FF-AR-06-189
15.   XXXXXXXXXXXXXXXXXXXxxxx                     XXXXXX, GA                 141,060          FF-AR-06-067
16.   XXXXXXXXXXXxxxx                             XXXXXXXXX, WA              412,498          FF-AR-06-095




15
  As reported in the Standard Accounting for Retail.
16
  Community Post Office (CPO) is a contract unit that provides postal services in small communities where an
independent post office has been discontinued.



                                                        7
                                             Restricted Information
Fiscal Year 2006 Financial Installation Audit –                                                                                                                                 FF-AR-07-075
 Contract Postal Units



                   APPENDIX B. AUDIT FINDINGS REPORTED AT
                          CONTRACT POSTAL UNITS
In FY 2006, the OIG issued 16 CPU reports. This table provides a summary of results.17




                                         xxxxxxxxxx
                                         xxxxxxxxxx


                                                      xxxxxxxxxx




                                                                                                    xxxxxxxxxx

                                                                                                                 xxxxxxxxxx




                                                                                                                                         xxxxxxxxxx
                                                                                                                                         xxxxxxxxxx
                                                                                                                                                      xxxxxxxxxx

                                                                                                                                                                   xxxxxxxxxx



                                                                                                                                                                                         xxxxxxxxxx

                                                                                                                                                                                         xxxxxxxxxx
                                                                   xxxxxxxxx




                                                                                                                 xxxxxxxxx
                                                      xxxxxxxx



                                                                               xxxxxxxx




                                                                                                                              xxxxxxxx
                                         xxxxxxx




                                                                                          xxxxxxx


                                                                                                    xxxxxx




                                                                                                                                                                   xxxxx
                                                                                                                                                                                 xxxxx


                                                                                                                                                                                         xxxxx

                                                                                                                                                                                         xx
     Description of Finding




                                                                                                                                                      x
Unit did not follow procedures for
                                                                   X           X                      X            X                                    X                                X    6
preparing the bank deposit.
Unit personnel did not secure stamps
                                            X                                                         X            X                                    X                                     4
and cash during nonbusiness hours.
Unit did not conduct annual
                                                                   X                                                                       X                                             X    3
accountability examinations.
Unit employees did not adequately
secure xxxxxxxxxxxxxxxxxxxxxxxxx            X                                  X                                   X                                                                          3
during non-business hours.
CPU employees did not implement
the xxxxxxxxxxxxxxxxxxxxxxxx                                                                                       X                       X                                             X    3
during nonbusiness hours.
CPU employees could not locate the
xxxxxxxxxxxxxxxxx that had been             X           X                                                                                               X                                     3
issued to them.
The host post office did not issue xxx
                                                                   X           X                                              X                                                               3
xxxxxxxxxxxx to CPU employees.
The host post office did not maintain
an up-to-date xxxxxxxxxxxxxxxx                          X                      X          X                                                                                                   3
xxxxxxxxxxx.
The unit’s surety bond had expired.                                                       X                                                X                                                  2
CPU training records were not
                                                                                          X                                                X                                                  2
documented or maintained.
The host post office did not xxxxxxx
                                            X                                                                                                                                            X    2
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
The CPU inappropriately had a
Postal Service-owned Self-Service           X                                                                                              X                                                  2
Postal Center (vending machine).
CPU employees did not receive the
                                                                               X                                                                        X                                     2
required training.
The unit did not document
accountability examinations on
                                                                               X                                                                                                              1
Postal Service Form 3368-P, Credit
Examination Record.
The unit’s cash retained exceeded
                                                                                                                   X                                                                          1
authorized limits.
Unit personnel did not adequately
                                                                   X                                                                                                                          1
secure the keys to the stamp stock.




17
  Three audit reports did not report any findings: xxxxxxxxxxx xxx, xxxxxxxxxxxxxxxxxxxxx xxx, and xxxxxxxxxxx
xxx.



                                                             8
                                                  Restricted Information
Fiscal Year 2006 Financial Installation Audit –                                                                                                  FF-AR-07-075
 Contract Postal Units




                                          xxxxxxxxxx
                                          xxxxxxxxxx




                                                                                                                                    xxxxxxxxxx




                                                                                                                                                         xxxxxxxxxx

                                                                                                                                                                      xxxxxxxxxx
                                                       xxxxxxxxx

                                                                   xxxxxxxxx
                                          xxxxxxxx
                                                       xxxxxxxx




                                                                               xxxxxxxx




                                                                                                   xxxxxxxx
                                                                                                              xxxxxxxx


                                                                                                                         xxxxxxxx




                                                                                                                                    xxxxxxxx
                                                                                                                                    Xxxxxxx
                                                                                                   xxxxxxx



                                                                                                              xxxxxxx



                                                                                                                                    xxxxxxx
                                                                                          xxxxxx




                                                                                                                                                 xxxxx


                                                                                                                                                                      xxxxx
                                                                                                                                    xxxx
                                                                                                                                    xxx




                                                                                                                                                                      xx
      Description of Finding
Unit employees did not include all
Postal Service funds in the daily            X                                                                                                                           1
deposit.
Cash and stamp accountability
                                             X                                                                                                                           1
exceeded the surety bond amount.
Employees commingled non-Postal
Service funds with Postal Service            X                                                                                                                           1
funds.
The host post office did not monitor
or clear the CPU’s financial                                       X                                                                                                     1
differences.
The host post office did not enter the
CPU’s financial data into the
                                                                   X                                                                                                     1
Electronic Money Order Voucher
System in a timely manner.
CPU employees did not submit
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                                                         X                                                                              1
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
The host post office did not xxxxxxx
                                                                                                                                            X                            1
xxxxxxxxxxxxxxxxxxxxx.
The host post office did not always
record post office box rental fees in                                                     X                                                                              1
WebBATS.18
CPU employees charged customers
incorrect fees for post office box                                                                                                               X                       1
rental.
CPU employees did not properly
                                                                                                                                        X                                1
manage closed post office boxes.
The host post office did not distribute
                                             X                                                                                                                           1
the bad check listing to the CPU.
The CPU did not maintain a bad
                                             X                                                                                                                           1
check register.
The host post office did not perform
                                                                                                                                    X                                    1
quarterly reviews.
The COR had not received COR
                                                                                                                                        X                                1
training.




18
     Web Box Activity Tracking System.



                                                              9
                                                   Restricted Information
Fiscal Year 2006 Financial Installation Audit –                                        FF-AR-07-075
 Contract Postal Units


                               APPENDIX C.
                   ACCOUNTABILITY EXAMINATION SUMMARY
This table shows the results of accountability examinations performed during the CPU audits,
rounded to the nearest dollar. Shortages and overages presented are the total value of all
shortages and overages identified during the examination.


                                                       Total Value of        Total Value of All
                                                    Accountability Shown
              Unit Name                               on PS Form 1412      Shortages Overages
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                                    $16,755      $658            $0
xxxxxxxxxxxxxxxxxxxxxx                                               6,428          0           66
xxxxxxxxxxxxx                                                       20,795          0            0
xxxxxxxxxxxxxxxxx                                                   13,866         74            0
xxxxxxxxxx                                                          46,376          0       1,651
xxxxxxxxxxxxxxxxxxxx                                                13,378         52            0
xxxxxxxxxxxxxxxxxxx                                                 27,020     2,484             0
xxxxxxxxxxxx                                                         4,177          0           12
xxxxxxxxxxxxxxxxx                                                    1,822          2            0
xxxxxxxxxxxxxxxxxxxxxx                                              14,549       375             0
xxxxxxxxxxxxxxx                                                      1,319          3            0
xxxxxxxxxxxxxxx                                                     11,385          0           51
xxxxxxxxx                                                            2,047          0            1
xxxxxxxxxxxxxxx                                                        595       456             0
xxxxxxxxxxxxxxxxxxxxxxxxx                                            9,507          5            0
xxxxxxxxxxxxxxx                                                      1,160          0         138
Total                                                            $191,179     $4,109      $1,919




                                                      10
                                            Restricted Information
